      Department of Homeland Security





      Information Technology Management Letter for the
      Citizenship and Immigration Services Component of
        the FY 2012 Department of Homeland Security
                   Financial Statement Audit




OIG-13-81                                        April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                   April 24, 2013
 
MEMORANDUM FOR:               Mark Schwartz 
                              Chief Information Officer 
                              U.S. Citizenship and Immigration Services 
 
                              Joseph Moore 
                              Chief Financial Officer 
                              U.S. Citizenship and Immigration Services 
 
FROM:                        Frank Deffer 
                             Assistant Inspector General 
                             Office of Information Technology Audits 
 
SUBJECT:                     Information Technology Management Letter for the 
                             Citizenship and Immigration Services Component of the FY 
                             2012 Department of Homeland Security Financial 
                             Statement Audit 
 
Attached for your action is our final report, Information Technology Management Letter 
for the Citizenship and Immigration Services Component of the FY 2012 Department of 
Homeland Security Financial Statement Audit.  The independent accounting firm KPMG 
LLP (KPMG) performed the Department of Homeland Security (DHS) financial statement 
audit as of September 30, 2012, and prepared this information technology (IT) 
management letter.   
 
KPMG is responsible for the attached IT management letter dated December 20, 2012, 
and the conclusion expressed in it.  We do not express an opinion on DHS’ financial 
statements or internal controls or conclusions on compliance with laws and regulations.  
The DHS management concurred with all recommendations. 
 
Consistent with our responsibility under the Inspector General Act, we are providing 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security.  We will post 
the report on our website for public dissemination.   
 
Please call me with any questions, or your staff may contact Sharon Huiswoud, Director, 
Information Systems Audit Division, at (202) 254‐5451. 
 
Attachment 
 
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




April 4, 2013

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
U.S. Citizenship and Immigration Services

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2012, and the related statements of net cost, changes in net
position, and custodial activity, and combined statement of budgetary resources for the year then
ended (referred to as the “fiscal year (FY) 2012 financial statements”). We were also engaged to
audit the Department’s internal control over financial reporting of the FY 2012 financial
statements. The objective of our audit engagement was to express an opinion on the fair
presentation of the FY 2012 financial statements and the effectiveness of internal control over
financial reporting of the FY 2012 financial statements.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
November 14, 2012, included internal control deficiencies identified during our audit
engagement that, in aggregate, represented a material weakness in information technology (IT)
controls and financial system functionality at the DHS Department-wide level. This letter
represents the separate limited distribution report mentioned in that report, of matters related to
U.S. Citizenship and Immigration Services (USCIS).
During our audit engagement, we noted certain matters in the areas of access controls,
configuration management, security management, and segregation of duties with respect to
USCIS’ financial systems general IT controls (GITC) which we believe contribute to a DHS
Department-wide material weakness in IT controls and financial system functionality. These
matters are described in the General IT Control Findings and Recommendations section of this
letter.
The comments described herein have been discussed with the appropriate members of
management, or communicated through Notices of Findings and Recommendations (NFRs), and
are intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to
you. We have not considered internal control since the date of our Independent Auditors’
Report.
The Table of Contents on the next page identifies each section of the letter. We have provided
a description of key USCIS financial systems and IT infrastructure within the scope of the FY
2012 DHS financial statement audit engagement in Appendix A; a description of each internal
control finding in Appendix B; and the current status of prior year NFRs in Appendix C. Our
comments related to financial management and reporting internal controls (comments not related




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
to IT) have been presented in a separate letter to the Office of Inspector General (OIG) and the
DHS Chief Financial Officer.
This report is intended solely for the information and use of DHS management, DHS OIG, U.S.
Office of Management and Budget (OMB), U.S. Government Accountability Office (GAO), and
the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


Very truly yours,
                                  Department of Homeland Security

                         United States Citizenship and Immigration Services

                              Information Technology Management Letter
                                         September 30, 2012

                       INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                             TABLE OF CONTENTS

                                                                                           Page

Objective, Scope, and Approach                                                              1

Summary of Findings and Recommendations                                                     2

General IT Control Findings and Recommendations                                             3

   Findings                                                                                 3

       Configuration Management                                                             3

       Access Controls                                                                      3

       Segregation of Duties                                                                3

       Security Management                                                                  3

              After – Hours Physical Security Testing                                       4

              Social Engineering Testing                                                    4

   Recommendations                                                                          5

       Configuration Management                                                             5

       Access Controls                                                                      5

       Segregation of Duties                                                                5

       Security Management                                                                  6

Application Controls                                                                        6



                                            APPENDICES

Appendix                                         Subject                                   Page

           Description of Key USCIS Financial Systems and IT Infrastructure within the
   A                                                                                        7
           Scope of the FY 2012 DHS Financial Statement Audit

   B       FY 2012 Notices of IT Findings and Recommendations at USCIS                     10

           Status of Prior Year Notices of Findings and Recommendations and Comparison 

   C                                                                                       13
           to Current Year Notices of Findings and Recommendations at USCIS




    Information Technology Management Letter for the Citizenship and Immigration Services

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit

                                  Department of Homeland Security

                         United States Citizenship and Immigration Services

                              Information Technology Management Letter
                                         September 30, 2012

                            OBJECTIVE, SCOPE, AND APPROACH

In connection with our financial statement audit of DHS as of and for the year ended September 30, 2012,
we performed an evaluation of the general Information Technology (IT) controls (GITCs) at USCIS to
assist in planning and performing our audit. The DHS Immigration and Customs Enforcement (ICE)
hosts a key financial application for USCIS. As such, our audit procedures over GITCs for USCIS
included testing of ICE’s Federal Financial Management System (FFMS) policies, procedures, and
practices, as well as USCIS policies, procedures and practices at USCIS’ Headquarters.

Federal Information System Control Audit Manual (FISCAM) was designed to inform financial statement
auditors about IT controls and related audit concerns to assist them in planning their audit work and to
integrate the work of auditors with other aspects of the financial statement audit. FISCAM also provides
guidance to auditors when considering the scope and extent of review that generally should be performed
when evaluating GITCs and the IT environment of a Federal agency. FISCAM defines the following five
control functions to be essential to the effective operation of GITCs and the IT environment.

•	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

•	 Access Control (AC) – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

•	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provides reasonable assurance
   that systems are configured and operating securely and as intended.

•	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.

•	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our GITC audit procedures, we assessed corrective actions implemented to address prior
year findings over technical security testing for key network and system devices and key financial
application controls in the ICE environment. In addition, we enhanced our GITC scope to include
additional vulnerability testing at USCIS.




    Information Technology Management Letter for the Citizenship and Immigration Services

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                                 Page 1
                                   Department of Homeland Security

                          United States Citizenship and Immigration Services

                               Information Technology Management Letter
                                          September 30, 2012

                   SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2012, USCIS initiated corrective action plans to address some prior year IT control
deficiencies. As a result, improvement was made in the area of effective password configurations over
two financial systems. In addition, we continued to identify GITC deficiencies that could potentially
impact USCIS’s financial data. The most significant findings were related to the FFMS configuration and
patch management, and deficiencies in security awareness. Collectively, the IT control deficiencies
limited USCIS’s ability to ensure that critical financial and operational data were maintained in such a
manner to ensure confidentiality, integrity, and availability. In addition, these control deficiencies
negatively impacted the internal controls over USCIS’ financial reporting and its operations and we
consider them to contribute to a material weakness at the Department level under standards established by
the American Institute of Certified Public Accountants. In addition, based upon the results of our test
work, we noted that ICE contributes to the DHS’ noncompliance with the requirements of the Federal
Financial Management Improvement Act of 1996.

Of the 19 findings identified during our FY 2012 testing, eight were new IT findings. These findings
represent control deficiencies in four of the five FISCAM key control areas: configuration management,
access controls, segregation of duties, and security management. Specifically, these control deficiencies
include:

    1.	 A lack of audit logging within the financial applications;
    2.	 Security management issues involving staff security training and exit processing procedure
        weaknesses;
    3.	 Inadequately designed and operating configuration management; and
    4.	 The lack of effective segregation of duties controls within the network and a financial application.

These control deficiencies may increase the risk that the confidentiality, integrity, and availability of
system controls and USCIS financial data could be exploited thereby compromising the integrity of
financial data used by management as reported in DHS’ consolidated financial statements.

While the recommendations made by us should be considered by USCIS, it is the ultimate responsibility
of USCIS management to determine the most appropriate method(s) for addressing the weaknesses
identified.




     Information Technology Management Letter for the Citizenship and Immigration Services

      Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                                   Page 2
                                  Department of Homeland Security

                         United States Citizenship and Immigration Services

                              Information Technology Management Letter
                                         September 30, 2012

            GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Findings:

During our engagement to audit the FY 2012 DHS financial statements, we identified the following
USCIS GITC control deficiencies that in the aggregate contribute to the IT material weakness at the
Department level.

Configuration Management

•	 Security configuration management over FFMS included several configuration and patch
   management weaknesses with the configuration of the FFMS Oracle databases, FFMS servers, and
   Cisco routers and switches.

Access Controls

•	 The following account management control deficiencies over CIS1, CLAIMS 3 Local Area Network
   (LAN), and CLAIMS 4:
       Lack of recertification of CLAIMS 3 LAN/CLAIMS 4 system users and CIS 1 network
       administrators.
       User access is not documented and maintained for CLAIMS 4.
       Temporary users for the CIS1 network did not obtain supervisory approval. 

       Lack of policies and procedures for separated CLAIMS 3 LAN user accounts.

•	 Lack of processes in place for sanitization of equipment and media.
•	 Audit logs are not captured for CLAIMS 4. However, audit logs are captured for CLAIMS 3 LAN;
   yet, USCIS has not implemented a process to review the logs on a periodic basis.
•	 Visitor access to the Vermont Service Center (VSC) was not appropriately controlled.

Segregation of Duties

•	 CIS1 network administrator access privileges were not appropriately segregated. Thirty-nine
   administrators retained access to one or more administrator access groups, which is not required to
   perform administrator job functions.
•	 Segregation of duties controls over CLAIMS 3 LAN user roles has not been established.

Security Management

•	 Procedures for transferred/terminated personnel exit processing have not been fully implemented.
•	 Lack of Computer Security Awareness Training compliance.
•	 Role-based IT Security training is not monitored.


    Information Technology Management Letter for the Citizenship and Immigration Services

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                                 Page 3
                                  Department of Homeland Security

                         United States Citizenship and Immigration Services

                              Information Technology Management Letter
                                         September 30, 2012

•	 Two financial systems failed to obtain Authority to Operate (ATO) for several quarters of the fiscal
   year:
        Sixteen high risk vulnerabilities were identified in CLAIMS 4.
        Forty-two high risk vulnerabilities were identified in CLAIMS 3 LAN.

After-Hours Physical Security Testing:

We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects included physical access to media and equipment that
housed financial data and information residing within an USCIS employee’s or contractor’s work area,
which could be used by others to gain unauthorized access to systems housing financial information. The
testing was performed at the USCIS headquarters location that processes and/or maintains financial data.
The specific results are listed as shown in the following table:

                                                Exceptions Noted at 111         Exceptions Noted at 111
Exceptions Noted                                Mass. Ave – Lower Level          Mass. Ave – 5th Floor
Passwords                                                   21                             21
For Official Use Only                                        3                             12
Keys                                                         5                              3
Personally Identifiable Information                          8                              8
Unlocked Laptop                                              1                              4
Server Names/IP Addresses                                    2                              5
Credit Cards                                                 3                              1
Total Exceptions at USCIS                                   43                             54

Additionally, KPMG was able to access the facility by providing an expired non- DHS government badge
to the security guard.

Social Engineering Testing:

Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing/
enabling computer system access. The term typically applies to deception for the purpose of information
gathering, or gaining computer system access, as shown in the following table:

 Total Called     Total Answered      Number of people who provided a username and/or password
  45              15                  3 – Both User Name and Password




    Information Technology Management Letter for the Citizenship and Immigration Services

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                                  Page 4

                                  Department of Homeland Security

                         United States Citizenship and Immigration Services

                              Information Technology Management Letter
                                         September 30, 2012

Recommendations:

We recommend that the USCIS Chief Information Officer (CIO) and Chief Financial Officer (CFO), in
coordination with the DHS Office of Chief Financial Officer (OCFO) and the DHS Office of the Chief
Information Officer (OCIO), make the following improvements to USCIS’s financial management
systems and associated information technology security program.

Configuration Management

Unless specifically noted where USCIS needs to take specific corrective action, we recommend that the
USCIS CIO and CFO, in coordination with the ICE OCFO and the ICE OCIO, make the following
improvements to ICE’s information technology:

•	 Examine the default configuration installations and system services installed on FFMS network
   devices and remove unnecessary system services.
•	 Ensure that password configuration settings are properly and effectively applied.
•	 Assess the patch deployment and testing processes and develop a process for patching applications
   across the enterprise.
•	 Implement appropriate FFMS database and network server patches and configuration baseline
   parameters consistent with DHS guidelines.

We recommend that USCIS:

•	 Monitor the ICE Mission Action Plan for the FFMS vulnerabilities that impact USCIS operations.

Access Controls

•	 Develop, approve, and implement access control policies and procedures to ensure that CLAIMS 3
   LAN, CIS 1 and CLAIMS 4 system administrator and user accounts are documented, approved, and
   recertified annually.
•	 Develop, approve, and implement access control policies and procedures to ensure that management
   of equipment and media is in accordance with National Institute of Standards and Technology
   guidance.
•	 Ensure that access is removed for separated CLAIMS 3 LAN accounts upon departure from the
   agency.
•	 Finalize the audit and accountability policy and procedures which enforce regular review of system
   activity logs.
•	 Update VSC physical security policies and procedures to stipulate the requirements of visitor entry to
   sensitive facilities.

Segregation of Duties

•	 Complete the account recertification process on CIS1 system/domain administrator accounts.

    Information Technology Management Letter for the Citizenship and Immigration Services

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                                 Page 5
                                  Department of Homeland Security

                         United States Citizenship and Immigration Services

                              Information Technology Management Letter
                                         September 30, 2012

•	 Develop, authorize, and implement procedures and operations manuals for CLAIMS 3 LAN
   segregation of duties.

Security Management

•	 Monitor the implementation plan to assure the exit clearance procedures have been implemented for
   Federal employees and contractors.
•	 Finalize the implementation of the Information Security Training Program and ensure all USCIS
   employees receive information security training commensurate to their job duties and in compliance
   with Federal regulations.
•	 Develop and enforce policies and procedures to ensure that staffs are complying with information,
   physical, and privacy security policies.

USCIS obtained an ATO for CLAIMS 3 LAN in March 2012 and CLAIMS 4 in July 2012. Therefore, no
recommendation will be provided for the ATO weaknesses.


                                  APPLICATION CONTROLS

As a result of the GITC control deficiencies noted above, manual compensating controls were tested in
place of application controls.




    Information Technology Management Letter for the Citizenship and Immigration Services

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                                Page 6
                                                                                Appendix A
                             Department of Homeland Security

                    United States Citizenship and Immigration Services

                         Information Technology Management Letter
                                    September 30, 2012




                                    Appendix A
Description of Key USCIS Financial Systems and IT Infrastructure
 within the Scope of the FY 2012 DHS Financial Statement Audit




  Information Technology Management Letter for the Citizenship and Immigration Services

   Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                         Page 7
                                                                                            Appendix A
                                  Department of Homeland Security
                         United States Citizenship and Immigration Services
                              Information Technology Management Letter
                                         September 30, 2012

Below is a description of significant USCIS financial management systems and supporting IT
infrastructure included in the scope of the USCIS component of the DHS FY 2012 financial statement
audit.

CLAIMS 3 Local Area Network (LAN)

CLAIMS 3 LAN provides USCIS with a decentralized, geographically dispersed LAN based mission
support case management system, with participation in the centralized CLAIMS 3 mainframe data
repository. CLAIMS 3 LAN supports the requirements of the Direct Mail Phase I and II, Immigration
Act of 1990 (IMMACT 90) and USCIS forms improvement projects. The CLAIMS 3 LAN is located at
the following service centers and district offices: Nebraska, California, Texas, Vermont, Baltimore
District Office, National Business Center, and Administrative Appeals Office. CLAIMS 3 LAN
interfaces with the following systems:
•   Citizenship and Immigration Services Centralized Oracle Repository
•   CLAIMS 3 Mainframe
•   Integrated Card Production System
•   CLAIMS 4
•   E-filing
•   Benefits Biometric Support System
•   Refugee, Asylum, and Parole System
•   National File Tracking System
•   Integrated Card Production System
•   Customer Relationship Interface System
•   USCIS Enterprise Service Bus

CLAIMS 4

The purpose of CLAIMS 4 is to track and manage naturalization applications. Claims 4 is a client/server
application. The central Oracle Database is located in Washington, DC while application servers and
client components are located throughout USCIS service centers and district offices. CLAIMS 4
interfaces with the following systems:
•   Central Index System (CIS)
•   Reengineered Naturalization Automated Casework System
•   CLAIMS 3 LAN and Mainframe
•   Refugee, Asylum, and Parole System
•   Enterprise Performance Analysis System
•   National File Tracking System
•   Asylum Pre-Screening System
     Information Technology Management Letter for the Citizenship and Immigration Services

      Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                                Page 8
                                                                                             Appendix A
                                   Department of Homeland Security

                          United States Citizenship and Immigration Services

                               Information Technology Management Letter
                                          September 30, 2012

•   USCIS Enterprise Service Bus
•   Biometrics Benefits Support System
•   Enterprise Citizenship and Immigration Service Centralized Operational Repository
•   Customer Relationship Interface System
•   FD 258 Enterprise Edition and Mainframe
•   Site Profile System

Federal Financial Management System (FFMS)

The FFMS is a CFO designated financial system and certified software application that conforms to OMB
Circular A-127 and implements the use of a Standard General Ledger for the accounting of agency
financial transactions. It is used to create and maintain a record of each allocation, commitment,
obligation, travel advance and accounts receivable issued. It is the system of record for the agency and
supports all internal and external reporting requirements. FFMS is a commercial off-the-shelf financial
reporting system. It includes the core system used by accountants, FFMS Desktop that is used by average
users, and a National Finance Center payroll interface. The FFMS mainframe component and 14 servers
are hosted at the DHS DC2 facility located in Virginia. FFMS currently interfaces with Treasury, BMIS
Web, and FedTraveler.

CIS1 Network

The USCIS network, also known as CIS1, is the Active Directory Domain Services Platform used within
the USCIS that contains all of USCIS’s Active Directory and Exchange resources. CIS1 is a part of the
Enterprise Infrastructure Services accreditation boundary and all Active Directory information, including
the Active Directory database itself, is hosted on specified servers called Domain Controllers. These 52
Active Directory Domain Controllers are located throughout the country, with the majority of them being
located in Virginia and Nebraska.




    Information Technology Management Letter for the Citizenship and Immigration Services

     Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                                 Page 9
                                                                               Appendix B
                            Department of Homeland Security

                   United States Citizenship and Immigration Services

                        Information Technology Management Letter
                                   September 30, 2012




                                   Appendix B

FY 2012 Notices of IT Findings and Recommendations at USCIS





 Information Technology Management Letter for the Citizenship and Immigration Services

  Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                        Page 10
                                                                                                                         Appendix B
                                                   Department of Homeland Security
                                          United States Citizenship and Immigration Services
                                               Information Technology Management Letter
                                                          September 30, 2012

FY 2012 NFR #                              NFR Title                               FISCAM Control Area       New Issue   Repeat Issue
 CIS-IT-12-01   Policies and Procedures for CLAIMS 3 LAN and CLAIMS 4                 Access Controls                         X
                Audit Logs
 CIS-IT-12-02   Inadequate Access Request Forms for CLAIMS 4 System Users             Access Controls                         X
 CIS-IT-12-03   Weak Logical Access Controls exist over CLAIMS 4                      Access Controls                         X
 CIS-IT-12-04   Security Awareness Issues Identified during After-Hours             Security Management         X
                Walkthrough
 CIS-IT-12-05   Lack of Segregation of Duties for CLAIMS 3 LAN                        Access Controls                         X
 CIS-IT-12-06   Periodic User Access Reviews are not Performed for CLAIMS 3           Access Controls                         X
                LAN Users
 CIS-IT-12-07   FFMS Vulnerability Weaknesses Impact USCIS Operations             Configuration Management                    X
 CIS-IT-12-08   Security Awareness Issues were Identified during Social             Security Management         X
                Engineering
 CIS-IT-12-09   Procedures for Transferred/Terminated Personnel Exit Processing       Access Controls                         X
                are not Finalized
 CIS-IT-12-10   Lack of Policies and Procedures for Separated CLAIMS 3 LAN            Access Controls                         X
                Accounts
 CIS-IT-12-11   Equipment and Media Policies and Procedures are not Current           Access Controls                         X


 CIS-IT-12-12   Lack of Computer Security Awareness Training Compliance             Security Management                       X
 CIS-IT-12-13   Lack Role-Based Training for Key Security Personnel                 Security Management                       X
 CIS-IT-12-14   Lack of ATO for CLAIMS 3 LAN                                        Security Management         X
 CIS-IT-12-15   Lack of ATO for CLAIMS 4                                            Security Management         X
 CIS-IT-12-16   Lack of Segregation of Duties Controls Exist over CIS 1             Segregation of Duties       X
 CIS-IT-12-17   Visitor Access Controls are Inadequate at the VSC                     Access Controls           X

Information Technology Management Letter for the Citizenship and Immigration Services Component of the FY 2012 Department of

                                       Homeland Security Financial Statement Audit


                                                                    Page 11

                                                                                                                   Appendix B
                                                   Department of Homeland Security
                                          United States Citizenship and Immigration Services
                                               Information Technology Management Letter
                                                          September 30, 2012

FY 2012 NFR #                              NFR Title                            FISCAM Control Area   New Issue    Repeat Issue
 CIS-IT-12-18   Inadequate CIS 1 Access Request Forms for Temporary Users          Access Controls       X
 CIS-IT-12-19   Incomplete Recertification for CIS 1 Network Administrators        Access Controls       X




Information Technology Management Letter for the Citizenship and Immigration Services Component of the FY 2012 Department of

                                       Homeland Security Financial Statement Audit


                                                                   Page 12

                                                                                Appendix C
                             Department of Homeland Security

                    United States Citizenship and Immigration Services

                         Information Technology Management Letter
                                    September 30, 2012




                                    Appendix C

Status of Prior Year Notices of Findings and Recommendations and 

       Comparison to Current Year Notices of Findings and

                   Recommendations at USCIS





  Information Technology Management Letter for the Citizenship and Immigration Services

   Component of the FY 2012 Department of Homeland Security Financial Statement Audit


                                         Page 13

                                                                                                                                   Appendix C
                                                   Department of Homeland Security
                                          United States Citizenship and Immigration Services
                                               Information Technology Management Letter
                                                          September 30, 2012

                                                                                                                     Disposition
       NFR #                                                 Description
                                                                                                            Closed                 Repeat
    CIS-IT-11-01        Equipment and media policies and procedures are not current                                                  X
    CIS-IT-11-02        Weak password configuration controls for CLAIMS 4                                     X
    CIS-IT-11-03        Policies and procedures for CLAIMS 3 LAN and CLAIMS 4 audit logs                                             X
    CIS-IT-11-04        Policies and procedures for separated CLAIMS 3 LAN accounts                                                  X
    CIS-IT-11-05        Periodic user access reviews are not performed for CLAIMS 3 LAN users                                        X
    CIS-IT-11-06        Procedures for transferred/terminated personnel exit processing are not finalized                            X
                        Incomplete or inadequate access request forms for CLAIMS 3 LAN and CLAIMS 4
    CIS-IT-11-07                                                                                                                     X
                        system users
                        ICE resource server and inadequate patch management weaknesses impact USCIS
    CIS-IT-11-08                                                                                              X
                        operations
    CIS-IT-11-09        Weak password configuration controls for CLAIMS 3 LAN                                 X
    CIS-IT-11-10        Weak logical access controls exist over CLAIMS 4                                                             X
    CIS-IT-11-11        Ineffective safeguards over physical access to sensitive facilities and resources     X
    CIS-IT-11-12        VPN access request forms are not properly maintained                                  X
    CIS-IT-11-13        Lack of Segregation of Duties for CLAIMS 3 LAN                                                               X
    CIS-IT-11-14        ADEX access request forms are not properly maintained                                 X
    CIS-IT-11-15        Lack of Computer Security Awareness Training Compliance                                                      X
    CIS-IT-11-16        Lack role-based training for key security personnel                                                          X
    CIS-IT-11-17        FFMS Vulnerability Weaknesses effect USCIS Operations                                                        X




Information Technology Management Letter for the Citizenship and Immigration Services Component of the FY 2012 Department of

                                       Homeland Security Financial Statement Audit


                                                                    Page 14

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Chief Financial Officer
   Chief Information Officer
   Chief Information Security Officer
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-81
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
